HHS/OIG-Audit--"Review of Medicaid Payments to Five Free-Standing InpatientAlcoholism Providers Within New York State, (A-02-91-01030)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments to Five Free-Standing Inpatient Alcoholism Providers Within New York State," (A-02-91-01030)
December 20, 1991
Complete
Text of Report is available in PDF format (328 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency did not cease claiming Federal financial participation in Medicaid
payments made to five free-standing inpatient alcoholism providers after a federally-sponsored demonstration project in
which they participated had ended. In addition to procedural corrections, we recommended a financial adjustment for $1,877,849
(Federal share). The State agency concurred.